          PROCUREMENT ACTIONS RELATED TO THE
           3.0 MANAGED CARE SUPPORT SERVICES
                  REQUEST FOR PROPOSAL


Report No. D-2001-125                      May 22, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DMOC                  Defense Medical Oversight Committee
RFP                   Request for Proposal
TMA                   TRICARE Management Activity
                      Office of the Inspector General, DoD
Report No. D-2001-125                                                    May 22, 2001
  (Project No. D2000CK-0269)

          Procurement Actions Related to the 3.0 Managed Care
                 Support Services Request for Proposal

                               Executive Summary

Introduction. This audit is in response to allegations to the Defense Hotline regarding
the TRICARE 3.0 Managed Care Support Services Request for Proposal. The
complainant alleged that the contract to review the 3.0 Request for Proposal was
improper; and that a consulting firm’s findings from its review of the TRICARE 3.0
Request for Proposal were unfounded and incorrect, and there was little rebuttal
presented to the Defense Medical Oversight Committee by the TRICARE Management
Activity. TRICARE provides regionally managed health care programs for active duty
and retired members of the uniformed services, their families, and their survivors.
TRICARE 3.0 was planned to be the next generation of managed care support services
contracts for 12 TRICARE regions in the United States.

Objective. The audit objective was to determine whether procurement actions and
decisions regarding the 3.0 Managed Care Support Services Request for Proposal were
proper.

Results. The allegation that the contract to review the 3.0 Request for Proposal was
improper was not substantiated. We determined that there were no improprieties in the
award of the contract to review the 3.0 Request for Proposal or in the contract itself.
The allegation that there was little rebuttal presented to the Defense Medical Oversight
Committee by the TRICARE Management Activity on the results of a consulting firm’s
review of TRICARE 3.0 was partially substantiated. The TRICARE Management
Activity provided the Assistant Secretary of Defense (Health Affairs) a written response
on the results of the review. The Assistant Secretary of Defense (Health Affairs)
decided not to provide the response to the Defense Medical Oversight Committee
because the Under Secretary of Defense (Personnel and Readiness) decision to cancel
the TRICARE 3.0 Request for Proposal had already been made. We did not review the
alleged unfounded and incorrect consulting firm’s findings because the June 13, 2000,
Defense Medical Oversight Committee’s recommendation to cancel TRICARE 3.0 was
not based solely on the review. We determined that a detailed review of the consulting
firm’s findings would not be productive at this time. See the Summary of Allegations
and Audit Results section for a discussion of the allegations.
Table of Contents

Executive Summary                               i


Introduction
     Background                                 1
     Objective                                  2
     Summary of Allegations and Audit Results   3

Appendixes
     A. Audit Process
         Scope and Methodology                  5
         Prior Coverage                         5
     B. Report Distribution                     6
Background
    This audit was conducted in response to allegations to the Defense Hotline
    concerning cancellation of the TRICARE 3.0 Managed Care Support Services
    Request for Proposal (RFP). The complainant alleged that the contract to
    review the 3.0 RFP was improper; and that a consulting firm’s findings from its
    review of the TRICARE 3.0 Request for Proposal were unfounded and
    incorrect, and there was little rebuttal presented to the Defense Medical
    Oversight Committee by the TRICARE Management Activity (TMA).

    TRICARE. In 1995, the DoD introduced TRICARE to provide regionally
    managed health care programs for active duty and retired members of the
    uniformed services, their families, and survivors. TRICARE is managed by
    TMA. TRICARE 3.0 was planned to be the next generation of managed care
    support services contracts for 12 TRICARE regions in the United States. The
    first TRICARE 3.0 RFP was issued for Region 11 (Washington, Oregon, and
    six counties in Idaho) on February 18, 2000. TMA estimated this acquisition
    cost at about $1 billion.

    Defense Medical Oversight Committee. In August 1999, the Defense Medical
    Oversight Committee (DMOC) was formed to provide oversight of the Defense
    Health Program and make recommendations to the Defense Resource Board on
    health policy and resourcing issues. The DMOC membership consists of:

           •   Under Secretary of Defense (Comptroller);

           •   Under Secretary of Defense (Personnel and Readiness);

           •   Assistant Commandant, Marine Corps;

           •   Services Vice Chiefs of Staff;

           •   Assistant Secretary of Defense (Health Affairs);

           •   Military Department Under Secretaries;

           •   Director for Logistics (J-4), Joint Chiefs of Staff;

           •   Director, Program Analysis and Evaluation; and

           •   Surgeons General.

    TRICARE 3.0 Reviews Requested by DMOC. The DMOC decided to
    request an analysis of the TRICARE 3.0 RFP on December 17, 1999, because
    the DMOC wanted to ensure that DoD had the best possible vehicle for
    contractor health care. Further, they were concerned about the Defense Health
    Program budget shortfall. The Center for Naval Analysis performed a review
    of the Region 11 TRICARE 3.0 RFP from January 6, 2000, through
    February 1, 2000, making several recommendations regarding financing and
                                         1
    performance criteria. The DMOC decided that the Region 11 RFP could be
    released since the contract in place was close to expiring and the Region 11 RFP
    could stand on its own.

    A longer, more rigorous review of TRICARE 3.0 was conducted by a
    consulting firm from March 2, 2000, through June 16, 2000, for a cost of
    $550,000. The contract for the consulting firm’s review of TRICARE 3.0 was
    placed against the Management, Organizational and Business Improvement
    Services Federal Supply Schedule. The consulting firm reviewed the Region 6
    TRICARE 3.0 RFP because it was the next TRICARE 3.0 RFP to be issued.
    The consulting firm concluded that there were concerns regarding the ability of
    TRICARE 3.0 to meet two of its stated objectives; specifically, to contain costs
    and improve beneficiary satisfaction.
    Cancellation of TRICARE 3.0. The DMOC concluded that the TRICARE
    3.0 RFP did not adequately address the requirements of TRICARE 3.0. Based
    on the DMOC recommendation, the Under Secretary of Defense (Personnel and
    Readiness) directed TMA to cancel the TRICARE 3.0 RFP for Region 11,
    effective July 3, 2000, and delayed initiating any further RFPs for other regions.
    The DMOC concluded that further study was needed to evaluate health care
    contract options, and to define the strategic direction and organizational
    management of the Defense Health Program. The FY 2001 DoD
    Appropriations Act authorized 2-year extensions for TRICARE managed care
    support contracts in effect, or in the final stages of acquisition, as of
    September 30, 2000.

Objective
    The audit objective was to determine whether procurement actions and decisions
    regarding the 3.0 Managed Care Support Services Request for Proposal were
    proper. See Appendix A for a discussion of the audit scope and methodology
    and prior coverage.




                                        2
Summary of Allegations and Audit Results
    A summary of the allegations to the Defense Hotline and our audit results are
    discussed below.

    Allegation. The contract to review the TRICARE 3.0 RFP was improper.
    Further, the contract contained a caveat stating that if the contractor identified
    any problems they would receive a follow-on contract to fix the problems.

    Audit Results. The allegation was not substantiated. We determined that there
    were no improprieties in the award of the contract to review the TRICARE
    3.0 RFP or in the contract itself. Further, the contract did not contain a
    provision indicating that the consulting firm would receive a follow-on contract.
    The procurement of the contract to review TRICARE 3.0 was started prior to
    release of the 3.0 RFP for Region 11 to the public for bid. The contracting
    office at the Naval Medical Logistics Command performed a market survey and
    identified four potential firms to conduct the TRICARE 3.0 review. The
    statement of objectives was released to the potential firms on January 13, 2000.
    The winning proposal was determined to represent the best value to the
    government, price and technical factors considered. A contract was awarded for
    the review of TRICARE 3.0 on March 2, 2000. The contract did not contain a
    provision indicating that if the contractor found problems with TRICARE 3.0,
    the same contractor would receive a follow-on contract to fix the problems
    identified.

    The selected consulting firm was awarded two follow-on contracts to explore
    TRICARE 3.0 options for the next generation of managed care support contracts
    and to develop a Military Health System strategic business plan, organizational
    assessment, and procurement strategy. The follow-on contracts, valued at
    $2.96 million, were awarded on a sole-source basis. The sole-source
    justification was that the consulting firm was the only source capable of
    performing the follow-on analysis without replicating the results of the first
    review at considerable time and expense to the government. The sole-source
    justification was reasonable.

    Allegation. The consulting firm’s findings from its review of the TRICARE
    3.0 RFP were unfounded and incorrect, and there was little rebuttal presented to
    the DMOC by TMA.

    Audit Results. The allegation was partially substantiated. There was little
    rebuttal presented to the DMOC on the consulting firm’s findings. In
    July 2000, TMA informally provided the Assistant Secretary of Defense (Health
    Affairs) a written response to the alleged errors in the consulting firm’s report
    on the TRICARE 3.0 review. The Assistant Secretary of Defense (Health
    Affairs) did not provide the response to the DMOC because the Under Secretary
    of Defense (Personnel and Readiness) decision to cancel the TRICARE 3.0 RFP
    had already been made.


                                          3
    The DMOC recommendation to cancel the 3.0 RFP was based on a variety of
    factors. The DMOC recommendation was based on these factors:

       •   a Center for Naval Analysis study of the 3.0 RFP that indicated there
           were TRICARE program issues and Military Health System
           organizational issues that had a significant effect on delivery of military
           health care,

       •   TRICARE contractors’ testimony before Congress that the TRICARE
           3.0 RFP was flawed and would result in a less than desirable contract,

       •   a limited industry interest in the Region 11 3.0 RFP, and

       •   briefings with the consulting firm’s study review team.
    We did not review the alleged unfounded and incorrect statements in the
    consulting firm’s report because the study was not the sole reason that the
    TRICARE 3.0 RFP was cancelled. In addition, determining the validity of the
    consulting firm’s findings at this time would not change the DMOC
    recommendation to cancel TRICARE 3.0.

Subsequent Events
    Subsequent to the cancellation of TRICARE 3.0, the FY 2001 National Defense
    Authorization Act opened TRICARE eligibility to all senior military retirees and
    their dependents. The impact of this addition to TRICARE is unknown. In
    addition, the DMOC is considering reorganizing the Military Health System,
    which may make TRICARE 3.0 obsolete.




                                         4
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We interviewed personnel from the Assistant Secretary of
    Defense (Health Affairs), TRICARE Management Activity, Naval Medical
    Logistics Command, the Air Force Surgeon General, and the Defense Medical
    Oversight Committee support staff to obtain information on the TRICARE
    3.0 RFP, the consulting firm’s contracts, and events surrounding the
    cancellation of the 3.0 RFP. We reviewed the 3.0 RFP, the consulting firm’s
    findings, and TMA response to the findings. We reviewed contract files to
    determine whether the consulting firm’s contract to review TRICARE 3.0 and
    the follow-on contracts were proper.

    Limitations to Scope. Because our objectives were limited to allegations
    related to TRICARE 3.0, we did not review the management control program.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Defense Contract Management high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from September 2000 through March 2001 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available upon request.

Prior Coverage
    No prior audit coverage has been conducted on 3.0 Managed Care Support
    Services procurement actions during the last 5 years.




                                        5
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Personnel and Readiness)
  Assistant Secretary of Defense (Health Affairs)
     Director, TRICARE Management Activity
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          6
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          7
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Joseph P. Doyle
Michael J. Tully
Brenda J. Pappas
Jason M. Yovich
